CERTIFICATE OF COMPLIANCE
Case No. 21-401
Caption: ZF Automotive US, Inc., Gerald Dekker,
and Christophe Marnat v. Luxshare, Ltd.
As required by Supreme Court Rule 33. l(h),
I certify that the document contains 5,114 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 14, 2021.

icdle Garci
Record Press, Inc.

Sworn to before me on
October 14, 2021
JASMINE WILLIAMS

Notary Public, State of New York
No. 01WI6397949
Qualified in Queens County
mission Expires Septembei· 16, 2023

